DEPARTMENT OF THE AIR FORCE
AIR FORCE LEGAL OPERATIONS AGENCY (AFLOA)

8 July 2019

Air Force Appellate Defense Division
1500 West Perimeter Road, Suite 1100
Joint Base Andrews, Maryland 20762
Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
RE: Petition for Writ of Certiorari, Richards v. Donovan et al.
Sir,

Please find enclosed forty (40) copies of the Petition for a Writ of Certiorari in the
above-styled case. In accordance with Rule 40.3 of this Honorable Court’s Rules,
Petitioner may proceed without payment of fees or costs or furnishing security
therefore and without filing an affidavit for indigence.
Attached to this letter are the required proof of service on the Solicitor General and
proof of compliance with the word count.
Please contact me with any questions concerning this matter. Thank you.
Very Respectfully Submitted,

MARK C. BRUEGGER
Senior Counsel
Air Force Appellate Defense Division
(240) 612-4770
mark.c.bruegger.civ@mail.mil
2 Attachments:
1. Certificate of Compliance
2. Certificate of Service

